LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 3, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE NO. 21-33:

MÁXIMA ACUÑA-ATALAYA, ET AL. V. NEWMONT MINING
CORPORATION, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Legal Scholars
on September 3, 2021, I caused service to be made pursuant to Rule 29 on the following
counsel for the Petitioners and Respondents:
PETITIONERS:
Richard L. Herz
EarthRights International
1612 K Street N.W.
Suite 800
Washington, DC 20006
860-233-4938
rick@earthrights.org

RESPONDENTS:
Melissa Arbus Sherry
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
202-637-3386
melissa.sherry@lw.com

This service was effected by depositing three copies of the Brief of Amici Curiae
in an official “first class mail” receptacle of the United States Post Office as well as by
transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 3rd day of September 2021.

